Memorandum from the Office of the Inspector General



June 27, 2011

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2009-12910-03 – PEER REVIEW OF THE STABILITY
ANALYSIS OF ASH DISPOSAL AREAS 2 AND 3 AT THE JOHNSONVILLE FOSSIL
PLANT



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and/or actions taken, have been included in
the report. No further action is needed.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates,
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Deana D. Scoggins, Senior Auditor, at
(423) 785-4822 or Greg R. Stinson, Director, Inspections, at (865) 633-7367. We
appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DDS:FAJ
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
June 27, 2011



cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Michael B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr., WT 7B-K
      John C. Kammeyer, LP 5D-C
      Tom Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2009-12910-03

     Mr. John Montgomery, Stantec
              Peer Review of Stantec Consulting Services, Inc.
     Report of Geotechnical Exploration and Slope Stability Evaluation
                        Ash Disposal Areas 2 and 3

             Tennessee Valley Authority Johnsonville Fossil Plant (JOF)
                New Johnsonville, Humphreys County, Tennessee



                                                                   Prepared for:




                                                       TVA Office of the Inspector General
                                                            Knoxville, Tennessee




                                                                   Prepared by:




                                                             Project No.: TVA106-07


                                                                Effective Date:
                                                               September 8, 2010


                                                                Date of Issuance:
                                                                 June 27, 2011


Marshall Miller & Associates, Inc.
ENERGY/ENVIRONMENTAL/ENGINEERING/CARBON MANAGEMENT

5900 Triangle Drive
Raleigh, NC 27617
Tel (919) 786-1414 • Fax (919) 786-1418
www.mma1.com
                                                                    Peer Review of Stantec Consulting Services, Inc.
                                                   Report of Geotechnical Exploration and Slope Stability Evaluation
                                                               Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                        Tennessee Valley Authority - Office of the Inspector General
                                                      June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 1


Item 1:       TITLE PAGE
Title of Report

Peer Review of Stantec Consulting Services, Inc.
Report of Geotechnical Exploration and Slope Stability Evaluation
Ash Disposal Areas 2 and 3
Johnsonville Fossil Plant
New Johnsonville, Humphreys County, Tennessee
Dated January 28, 2010

Project Location

The project site is located in New Johnsonville, Humphreys County, Tennessee, on the eastern
shore of Kentucky Lake.

Effective Date of Report

September 8, 2010

Qualified Persons



___________________________                        ___________________________
William S. Almes, P.E.                             Peter Lawson.
Formerly:                                          Executive Vice President
TVA OIG Contract Manager                           Principal-in-Charge
Senior Engineer & Director of                      Marshall Miller & Associates, Inc.
Geotechnical Services
Marshall Miller & Associates, Inc.

                                                   ___________________________
                                                   Christopher J. Lewis, P.E.
                                                   Formerly:
                                                   Principal Engineer
                                                   D’Appolonia, Engineering Division of
                                                   Ground Technology, Inc.


___________________________
Edmundo J. Laporte, P.E.                           ___________________________
Formerly:                                          Aaron J. Antell, P.E.
Senior Engineer                                    Project Engineer
Marshall Miller & Associates, Inc.                 D’Appolonia, Engineering Division of
                                                   Ground Technology, Inc.
                                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                                     Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                                 Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                                          Tennessee Valley Authority - Office of the Inspector General
                                                                        June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                              • Page 2


Item 2:            EXECUTIVE SUMMARY
          The Tennessee Valley Authority Office of the Inspector General retained Marshall Miller
& Associates, Inc. (Marshall Miller), to conduct a peer review of the report titled “Report of
Geotechnical Exploration and Slope Stability Evaluation, Ash Disposal Areas 2 and 3 (Active
Ash Disposal Area), Johnsonville Fossil Plant, New Johnsonville, Tennessee” (Johnsonville
Report) prepared by Stantec Consulting Services, Inc. (Stantec), of Lexington, Kentucky.
Marshall Miller reviewed the Johnsonville Report dated January 28, 2010.                                          In summary,
Marshall Miller believes that Stantec’s evaluations of the Active Ash Disposal Area provide a
reasonable assessment of the margin of safety associated with the evaluated conditions, which
indicates that the facility is not in danger of imminent failure.

          Marshall Miller’s assignment was to review the scope, procedures, and results of the
subsurface exploration and laboratory testing programs and the seepage and slope stability
analyses performed by Stantec for the Active Ash Disposal Area. Based on the findings of its
exploration program and stability analyses, Stantec also produced a separate set of design and
construction documents that contains the proposed construction improvements to improve the
stability of the Northeast Dike of the Ash Disposal Area No. 2, which Marshall Miller also peer-
reviewed and commented upon in a separate report.1

          In Marshall Miller’s opinion, Stantec performed a suitable subsurface exploration and
laboratory testing program to characterize the engineering properties of the native foundation
materials (alluvial sand and gravel, and clay and silt), heterogeneous fill,2 clay dikes, and
hydraulically placed (sluiced) ash.

          Based on the review of Stantec’s seepage analyses, it is Marshall Miller’s opinion that
Stantec followed generally accepted practices and arrived at reasonable predictions of exit
gradients.3 However, Marshall Miller believes that the calculated factors of safety against


1
    See Marshall Miller’s Report entitled “Peer Review of Stantec Consulting Services, Inc. Plans for Construction – Northeast
    Dike Stability Improvements Ash Disposal Area No. 2, Johnsonville Fossil Plant.”
2
    Fill material that is not uniform in composition, which typically results in different physical properties.
3
    Is the hydraulic gradient (a measure of energy loss when water flows through soil) near the surface where
    water exits a soil slope, embankment, face, or similar surface.
                                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                                      Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                                  Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                                           Tennessee Valley Authority - Office of the Inspector General
                                                                         June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                               • Page 3

piping4 in the heterogeneous fill are overstated because Stantec used high values of critical
gradient5 for the fill relative to its measured in-situ densities. This observation does not present a
serious issue, as in Appendix G, Stantec reports factors of safety well over 3.0 for most cross-
sections (except Cross-Sections A, B, and C), and Marshall Miller understands that the proposed
site modifications include dewatering the sluice channel behind the northeast dike, which should
reduce seepage gradients and correspondingly increase the factors of safety against piping
above 3.

          With regard to Stantec’s development of material shear strengths, Marshall Miller found
that Stantec arrived at reasonable shear strength properties for the generalized material layers and
zones. Based on review of Stantec’s slope stability analyses, it is Marshall Miller’s opinion that
Stantec performed stability analyses for static, long-term load conditions using appropriate
methodologies and reasonable material properties.

Management’s Response to Draft Report

          To address this report, TVA management had Stantec review and respond to the findings
of this report. TVA management and its contractor provided additional information on the
findings and recommendations in this report. For complete responses, please see appendices A –
TVA Transmittal Memo and B – Stantec’s Response.

Marshall Miller Assessment of Management’s Comments to Draft Report

          Marshall Miller concluded that the additional information provided adequately addressed
the concerns and recommendations identified in the report. For a complete response, see
appendix C – Marshall Miller Response.




4
    A measure of the level of safety where piping exists.
5
    The gradient at which a soil deposit can no longer resist the forces generated by water flowing through
    the soil.
                                                                                              Peer Review of Stantec Consulting Services, Inc.
                                                                             Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                                         Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                                                  Tennessee Valley Authority - Office of the Inspector General
                                                                                June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                      • Page 4


Item 3:              TABLE OF CONTENTS

ITEM 1:              TITLE PAGE ........................................................................... 1 
ITEM 2:              EXECUTIVE SUMMARY ......................................................... 2 
ITEM 3:              TABLE OF CONTENTS ............................................................ 4 
ITEM 4:              INTRODUCTION...................................................................... 5 
ITEM 5:              MARSHALL MILLER PROJECT TEAM .................................. 6 
ITEM 6:              SCOPE OF SERVICE................................................................ 7 
ITEM 7:              BACKGROUND ....................................................................... 8 
ITEM 8:              GEOTECHNICAL EXPLORATION AND LABORATORY
                     TESTING REVIEW .................................................................. 9 
          8.1.       FINDINGS..................................................................................................................9 
          8.2.       RECOMMENDATIONS ...............................................................................................9 
ITEM 9:              SEEPAGE ANALYSES REVIEW ............................................. 11 
          9.1.       FINDINGS................................................................................................................11 
          9.2.       RECOMMENDATIONS .............................................................................................12 
ITEM 10:  SLOPE STABILITY ANALYSES REVIEW .............................. 13 
          10.1.  FINDINGS................................................................................................................13 
          10.2.  RECOMMENDATIONS .............................................................................................13 

APPENDICES

MEMORANDUM DATED MARCH 25, 2011, FROM ROBERT M. DEACY TO
ROBERT E. MARTIN.............................................................................................................APPENDIX A

MEMORANDUM DATED MARCH 24, 2011, FROM STEPHEN H. BICKEL TO
JOHN KAMMEYER .............................................................................................................. APPENDIX B

MEMORANDUM DATED JUNE 24, 2011, FROM JOHN E. FEDDOCK AND PETER LAWSON TO
GREG R. STINSON ................................................................................................................ APPENDIX C
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                       Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                   Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                          June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 5


Item 4:          INTRODUCTION
          The Tennessee Valley Authority (TVA) Office of the Inspector General (OIG) retained
Marshall Miller & Associates, Inc. (Marshall Miller), to conduct a peer review of the report titled
“Report of Geotechnical Exploration and Slope Stability Evaluation, Ash Disposal Areas 2 and 3
(Active Ash Disposal Area), Johnsonville Fossil Plant, New Johnsonville, Tennessee”
(Johnsonville Report) prepared by Stantec Consulting Services, Inc. (Stantec), of Lexington,
Kentucky.      The TVA retained Stantec to address geotechnical issues identified during the
Phase 1 facility assessment and corresponding Phase 1 report. During its engagement, Marshall
Miller reviewed the Johnsonville Report dated January 28, 2010, and has documented its results
herein.

          This report presents the following:

                The Marshall Miller project team.

                A description of Marshall Miller’s scope of service.

                Background information for the Johnsonville Fossil Plant.

                The findings and recommendations from Marshall Miller’s review of Stantec’s
                 geotechnical exploration, laboratory testing, seepage analyses, and slope stability
                 analyses.
                                                                                     Peer Review of Stantec Consulting Services, Inc.
                                                                    Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                                Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                                         Tennessee Valley Authority - Office of the Inspector General
                                                                       June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                             • Page 6


Item 5:            MARSHALL MILLER PROJECT TEAM
         Marshall Miller, an employee-owned and Engineering News-Record Magazine top 500
company, began offering geologic services to the mining industry in 1975. Marshall Miller
provides a range of services to the mining, utility, financial, governmental, and legal industries.
Marshall Miller employs nearly 200 engineers, geologists, scientists, and other professionals who
work from regional offices in ten states.

         Marshall Miller retained D’Appolonia, Engineering Division of Ground Technology,
Inc., of Monroeville, Pennsylvania, for its expertise with tailings dams and impoundments,
problem ground conditions, and forensic investigations.

         The Marshall Miller project team comprises seven professionals:

                  Mr. Peter Lawson, Executive Vice President and Principal-in-Charge.

                  Mr. William S. Almes, P.E., Director of Geotechnical Services and Project
                   Manager for the TVA OIG.

                  Mr. Edmundo J. Laporte, P.E., Senior Engineer.

                  Mr. William M. Lupi, P.E., Project Engineer.

                  Mr. Richard G. Almes, P.E., Principal Geotechnical Engineer.

                  Mr. Christopher J. Lewis, P. E., Principal Geotechnical Engineer.6

                  Mr. Aaron J. Antell, P.E., Project Engineer.6




6
    Christopher J. Lewis, P.E., and Aaron J. Antell, P.E., are Geotechnical Subconsultants of Marshall Miller and as of the
    effective date of this report were employed by D’Appolonia, Engineering Division of Ground Technology, Inc., Monroeville,
    Pennsylvania.
                                                                     Peer Review of Stantec Consulting Services, Inc.
                                                    Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                       June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                             • Page 7


Item 6:        SCOPE OF SERVICE
       The OIG engaged Marshall Miller to perform a technical peer review of the geotechnical
exploration, laboratory testing, and engineering analyses performed by Stantec for Ash Disposal
Areas 2 and 3 (Active Ash Disposal Area) at the Johnsonville Fossil (JOF) Plant. Marshall
Miller did not perform a parallel study (field exploration, laboratory testing, and engineering
analyses) to the Stantec study of the existing ash disposal area conditions. Marshall Miller used
the geotechnical exploration and test data provided in the Johnsonville Report to formulate the
findings and recommendations herein.

       Marshall Miller reviewed the Johnsonville Report dated January 28, 2010, and associated
Appendices A through I, which were received in electronic format (pdf files). Marshall Miller
based the professional opinions herein on the above-referenced documents and is unaware of
newer versions of these documents.

       In providing the professional services to compile this report, Marshall Miller used
generally   accepted   engineering   principles   and    practices       to     develop        findings        and
recommendations. Marshall Miller reserves the right to revise this report based on additional
information.   If OIG, TVA, TVA’s consultants, or others discover additional information
pertinent to the performance of the Active Ash Disposal Area at the JOF Plant, Marshall Miller
requests the opportunity to review the information for relevance to Marshall Miller’s findings
and recommendations herein.
                                                                      Peer Review of Stantec Consulting Services, Inc.
                                                     Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                 Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                          Tennessee Valley Authority - Office of the Inspector General
                                                        June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 8


Item 7:        BACKGROUND
       The JOF plant is located on the eastern shore of Kentucky Lake in New Johnsonville,
Humphreys County, Tennessee, and produces 550 million kilowatt-hours of baseload energy per
year. The ash disposal area is on a 125-acre island connected to the on-shore plant area by a
1,000-foot causeway. The causeway supports an asphalt paved road and pipes carrying sluiced
ash from the plant to the disposal area. The Active Ash Disposal Area on the island is 87 acres
and is surrounded by a two-tiered clay dike system with a crest elevation of 390 feet (El. 390), or
about 30 to 35 feet above the Kentucky Lake pool level. The dike supports a perimeter access
road and has outslopes measuring from 1.5H:1V on the inland side to greater than 2H:1V on the
lake side.

       The construction of the island that would later become Ash Disposal Areas 2 and 3 was
initiated as a result of dredging for the boat harbor and condenser water inlet channels. Between
1949 and 1952, dredge spoil was hydraulically placed to form a breakwater at what is now the
east dike of Ash Disposal Areas 2 and 3. The top of the breakwater was about El. 370. From the
JOF Plant’s completion in 1952 to the mid-1960s, TVA disposed of ash in Disposal Area 1. As a
result of Disposal Area 1 reaching its maximum storage capacity, in 1968 and 1969, TVA
constructed Ash Disposal Area 2 using a dike to connect the ends of the breakwater, forming an
enclosed area. In 1970, TVA raised the crest of the perimeter dike to El. 378 (Lower Clay Dike)
to protect the island from inundation during periods of high lake levels. In 1974, TVA raised the
dike crest to El. 390 (Upper Clay Dike) to provide additional ash disposal capacity.

       During the 1980s and 1990s, TVA operated additional ash disposal facilities within the
JOF reservation. During operation of these additional disposal facilities, TVA sluiced ash to the
island disposal area and then dredged and pumped ash to the new facilities for final disposal.
The current ash disposal practice at the JOF Plant consists of sluicing ash to channels on the
active island disposal area, removing ash from those channels with excavators, stacking ash for
drying, and hauling ash off-site for final disposal in permitted landfills. These activities are
carried out by Trans-Ash Incorporated.
                                                                        Peer Review of Stantec Consulting Services, Inc.
                                                       Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                   Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                          June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 9


Item 8:        GEOTECHNICAL EXPLORATION AND LABORATORY
               TESTING REVIEW
       Marshall Miller reviewed the scope, procedures, and results of the subsurface exploration
and laboratory testing program performed by Stantec at the Active Ash Disposal Area of the JOF
Plant. Marshall Miller reviewed descriptions of the exploration and testing procedures in the
Johnsonville Report and appended documents, which include geotechnical drawings, boring
logs, and results of laboratory testing.      In Marshall Miller’s professional opinion, Stantec
performed a suitable subsurface exploration and laboratory testing program to characterize the
engineering properties of the native foundation materials (alluvial sand and gravel, and clay and
silt), heterogeneous fill, clay dikes, and hydraulically placed (sluiced) ash.

8.1.   FINDINGS
       Upon review of the Johnsonville Report, Marshall Miller has developed the following
findings:

              In the Johnsonville Report, Stantec discusses the excavation of four inspection
   pits along the west dike at four of the depressions observed during the Phase 1 site
   reconnaissance. Stantec excluded the subsurface logs and locations for the inspection pits
   from the Johnsonville Report.

              The boring logs do not indicate results of field measurements using a pocket
   penetrometer or torvane device in clay soils. While Marshall Miller acknowledges these
   devices are not ideal for determination of shear strength, they indicate the consistency of
   cohesive soils. In its report, Stantec indicates it estimated the consistency of cohesive soils
   using laboratory testing and standard penetration test (SPT) N-values. Field devices like the
   pocket penetrometer are more appropriate for determining the consistency of cohesive soils
   than SPT N-values.

8.2.   RECOMMENDATIONS
       Marshall Miller has developed the following recommendations for consideration.
                                                                  Peer Review of Stantec Consulting Services, Inc.
                                                 Report of Geotechnical Exploration and Slope Stability Evaluation
                                                             Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                      Tennessee Valley Authority - Office of the Inspector General
                                                    June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                         • Page 10


           Marshall Miller recommends providing logs and locations for the inspection pits
within the Johnsonville Report. If logs and locations are not available, this should be stated
in the report.

           Marshall Miller recommends, as a general practice, the use of a pocket
penetrometer or torvane device in clay soils since they provide more reliable measurements
of the consistency of cohesive soils than the values obtained through empirical relationships
based on SPT N-values.
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                      Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                  Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                         June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 11


Item 9:        SEEPAGE ANALYSES REVIEW
       Marshall Miller reviewed Stantec’s seepage analyses of the Active Ash Disposal Area at
the JOF Plant, including the material properties and boundary conditions. In general, it is
Marshall Miller’s opinion that Stantec performed seepage analyses of the Active Ash Disposal
Area using generally accepted practices and arrived at reasonable predictions of gradients.
However, Marshall Miller believes that the calculated factors of safety against piping in the
heterogeneous fill are overstated by as much as 20 percent because Stantec used high values of
critical gradient for the fill relative to its measured in-situ densities. This observation does not
present a serious issue, as in Appendix G Stantec reports factors of safety well over 3.0 for most
cross-sections (except Cross-Sections A, B, and C), and Marshall Miller understands that the site
modifications include dewatering the sluice channel behind the northeast dike, which should
reduce seepage gradients and correspondingly increase the factors of safety against piping.

9.1.   FINDINGS
       Based on review of the Johnsonville Report and related appendices, Marshall Miller
assembled the following findings.

              Calculated factors of safety against piping summarized in Table 7.2 for Cross-
   Sections A, B, C, and C1 do not match the calculated factors of safety in Appendix G,
   Seepage Analysis Results. Calculated factors of safety in Appendix G for Cross-Sections A,
   B, and C are lower than values in Table 7.2. (Marshall Miller understands that Stantec
   corrected these noted discrepancies in its April 13, 2010, update of the Johnsonville Report.)

              Calculated factors of safety in Appendix G for Cross-Sections A and B are less
   than the target factor of safety of 3 adopted by Stantec and the factor of safety for Cross-
   Section C is equal to 3.0.

              Stantec used a critical gradient equivalent to 1.22 in its calculation of the factor of
   safety against piping in heterogeneous fill material beneath and lake-side of the Lower Clay
   Dike. A critical gradient of 1.22 corresponds to a saturated unit weight of 138.5 pounds per
                                                                     Peer Review of Stantec Consulting Services, Inc.
                                                    Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                         Tennessee Valley Authority - Office of the Inspector General
                                                       June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                            • Page 12

   cubic foot (pcf). It appears that Stantec used a void ratio equivalent to 0.42 and specific
   gravity of solids equivalent to 2.73 from Table 7.1 to calculate the critical gradient for the
   heterogeneous fill material.   The laboratory data presented indicates density results for
   undisturbed samples from consolidated undrained triaxial testing equal to a saturated unit
   weight of about 125 pcf and void ratios over 0.65. Also, Stantec used a saturated unit weight
   of 124 pcf for fill material in their slope stability analyses. In Marshall Miller’s opinion, a
   saturated unit weight of 138.5 pcf for the heterogeneous fill material is high, considering the
   available test data on the consistency and composition of the fill material.                      Therefore,
   Marshall Miller believes that the factors of safety against piping in the fill material are
   overstated as much as 20 percent.

9.2.   RECOMMENDATIONS
       Marshall Miller has developed the following recommendations for consideration:

             Although the calculated factors of safety against piping along the northeast dike
   are below the target factor of safety of 3, the site modifications, proposed by TVA, include
   dewatering the sluice channel behind the northeast dike, which should reduce seepage
   gradients and correspondingly increase the factors of safety against piping. Marshall Miller
   recommends that the proposed site modifications be implemented by TVA accordingly.

             Marshall Miller recommends that Stantec revise the critical gradient and
   calculation of the factor of safety against piping in the heterogeneous fill material. It is
   Marshall Miller’s opinion that an appropriate critical gradient for pertinent zones of the fill
   material is 1.0 or somewhat lower, based on a saturated unit weight equivalent to 124 pcf or a
   void ratio equivalent to 0.67, as per the consolidated undrained triaxial testing data for
   undisturbed samples.
                                                                       Peer Review of Stantec Consulting Services, Inc.
                                                      Report of Geotechnical Exploration and Slope Stability Evaluation
                                                                  Ash Disposal Areas 2 and 3, Johnsonville Fossil Plant
                                                           Tennessee Valley Authority - Office of the Inspector General
                                                         June 27, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                              • Page 13


Item 10:        SLOPE STABILITY ANALYSES REVIEW
       Marshall Miller reviewed Stantec’s slope stability analyses, including development of
material shear strength properties. With regard to Stantec’s development of material shear
strengths, Marshall Miller found that Stantec arrived at reasonable shear strength properties for
the generalized material layers and zones. Based on review of Stantec’s slope stability analyses,
it is Marshall Miller’s opinion that Stantec performed stability analyses for static, long-term load
conditions using appropriate methodologies and reasonable material properties. Marshall Miller
believes that Stantec’s evaluations of the Active Ash Disposal Area provide a reasonable
assessment of the margin of safety associated with the evaluated conditions, which indicates that
the facility is not in danger of imminent failure.

10.1. FINDINGS
       Marshall Miller noted the following finding during the peer review:

              In Appendix F, Stantec uses historical shear strength data to help formulate
   effective shear strength plots for the upper clay dike, lower clay dike, and heterogeneous fill
   materials. Pertinent excerpts of the historical data are not appended to the Johnsonville
   Report.

10.2. RECOMMENDATIONS
       Marshall Miller has developed the following recommendation for consideration:

              Marshall Miller recommends that Stantec append the excerpts of historical
   documents that reflect the historical data they considered in developing material shear
   strength properties to the Johnsonville Report.
Appendix A
                                                                                      Appendix B



                           Stantec Consulting Services Inc.
                           1901 Nelson Miller Parkway
                           Louisville KY 40223-2177
                           Tel: (502) 212-5000
                           Fax: (502) 212-5055




March 24, 2011                                                              let_015_175559008


Mr. John Kammeyer
Vice President
Tennessee Valley Authority
1101 Market Street, LP 5G
Chattanooga, Tennessee 37402

Re:     Response to Comments
        Marshall Miller Review – March 3, 2011
        Stantec 1/28/2010 DRAFT Report of Geotechnical Exploration
        and Slope Stability Evaluation
        Johnsonville Fossil Plant Ash Disposal Areas 2 and 3

Dear Mr. Kammeyer:

As requested, Stantec has completed a review of Marshall Miller and Associates (Marshall
Miller) report: Peer Re view of Stantec Consul ting Service s Inc. Report of Geote chnical
Exploration and Slope Stability Evaluation Ash Disposal Areas 2 and 3, dated March 3, 2011.
Marshall Miller’s recommendations and Stantec’s corresponding responses are listed below.

Item 8: Geotechnical Exploration and Laboratory Testing Review

Item 8.2 - F irst bullet - MM Recommendation: Marshall Miller recommends providi ng logs
and locations for the inspection pit s within the Johnsonville Report. If logs and locat ions are
not available, this should be stated in the report.

Stantec Response: Concur. Test pit logs with coordinates of locations were provided in the
final report that was issued on April 13, 2010.

Item 8.2 - Second bullet - MM Recommendation: Marshall Mille r reco mmends, as a
general pra ctice, the u se of pocket penetrometer or torvan e device in clay so ils since they
provide m ore reliable measurem ents of the consistency of cohesive soils than th e values
through empirical relationships based on SPT N-values.

Stantec Re sponse: Stantec agrees that use of pocket penetrometer and torvane devices
are an option to measure consistency of cohesive soils. It is also Stantec’s opinion that SPT
N-value data is an acceptable method for general interpretation of strength consistency of
cohesive soils.



                                 Stantec Consulting Services Inc.
                                   One Team. Infinite Solutions.
                                                                                                   Appendix B



Tennessee Valley Authority
March 24, 2011
Page 2



Item 9: Seepage Analyses Review

Item 9.2 - F irst bullet - MM Reco mmendation: Althoug h the calculated factors of safety
against pip ing along th e northeast dike are b elow the tar get factor o f safety of 3, the site
modifications, proposed by TVA, include dewatering the sluice channel behind the northeast
dike, which should redu ce seepage gradients and correspo ndingly incr ease the factors of
safety again st piping. Marshall Miller recommends that th e proposed site m odifications be
implemented by TVA accordingly.

Stantec Response: Concur. Site modifications to relocate the sluice channel from behind
the northeast dike were implemented in December, 2009. TVA also routinely pumps
collected storm water from the abandoned sluice channel to maintain a dewatered condition.
Additionally, construction activities to improve overall slope stability and seepage conditions
for the northeast dike were completed in August, 2010. The mitigation efforts included
placing a rock buttress, drainage blankets and seepage filters, and re-grading the dike slope
to a flatter configuration.

Item 9.2 - Second bullet - MM Recommendation: Marshall Mille r recomme nds that
Stantec revise the critical gradient and calculation of the factor of safety against piping in the
heterogeneous fill material. It i s Marshall Miller’s opinion that an appropriate critical gradient
for pertinent zones of th e fill m aterial is 1.0 or somewhat lower, based on a saturated unit
weight equivalent to 1 24 pcf or a void ratio equivalent t o 0.67, as per the con solidated
undrained triaxial testing data for undisturbed samples.

Stantec Response: Stantec revised the critical gradient and factors of safety against piping
as recommended. The revised factors of safety were recalculated using actual groundlines
and groundwater conditions resulting from recently completed remediation projects at
Johnsonville. The minimum factor of safety was recalculated to be 4.3, which is higher than
the target value.

Item 10: Slope Stability Review

Item 10.2 - First bullet - MM Recommendation: Marshall Miller recommends tha t Stantec
append the excerpts of historical documents that reflect the historical data they considered in
developing material shear strength properties to the Johnsonville Report.

Stantec Response: The historical test results that were considered in shear strength
selection are plotted and identified on the Shear Strength Selection Charts presented in
Appendix F of the final report that was submitted on April 13, 2010. The historical documents
and reports from which this data was taken are listed in the reference section of the report
(Section 10) and are available for review.




V:\1755\active\175559008\clerical\correspondence\let_015_jof_geotech_report_response _to_mm.docx
                                                                                                   Appendix B



Tennessee Valley Authority
March 24, 2011
Page 3



We appreciate the opportunity to provide these responses. If you have any questions or
need additional information, please call.

Sincerely,

STANTEC CONSULTING SERVICES INC.




Stephen H. Bickel, PE
Senior Principal


/db

Cc:            Roberto L. Sanchez, PE
               Michael S. Turnbow




V:\1755\active\175559008\clerical\correspondence\let_015_jof_geotech_report_response _to_mm.docx
                                                                                                      Appendix C
        Ashland, VA • (804) 798-6525                                                      Charleston, WV • (304) 344-3970
       Beckley, WV • (304) 255-8937                                                        Kingsport, TN • (423) 279-9775
       Bluefield, VA • (276) 322-5467                                                      Lexington, KY • (859) 263-2855
      Bossier City, LA • (318) 747-7734                                                     Mission, KS • (913) 648-4424
       Camp Hill, PA • (717) 730-7810                                                       Raleigh, NC • (919) 786-1414
                                                   www.mma1.com
     5900 Triangle Drive / Raleigh, NC 27617 / Tel (919) 786-1414 / Fax (919) 786-1418 / Email raleigh@mma1.com

                                                    June 24, 2011


    Mr. Greg R. Stinson
    Director, Inspections
    Tennessee Valley Authority
    Office of the Inspector General
    1101 Market Street EB 2G-C
    Chattanooga, TN 37402-2801

    Re:       Response to Comments to OIG Draft Inspection 2009-12910-03
              Facility:     Johnsonville Fossil Plant
              Report Title: Report of Geotechnical Exploration and Slope Stability Evaluation Ash
                            Disposal Areas 2 and 3
              Firm:         Stantec Consulting Services Inc. (Stantec)
              Date:         January 28, 2010

    Dear Mr. Stinson:

    Marshall Miller & Associates, Inc. (Marshall Miller) was contracted by the Tennessee Valley
    Authority Office of the Inspector General (TVA OIG) to provide response and rebuttal to
    comments prepared by Stantec Consulting Services Inc. (Stantec) dated March 24, 2011.
    These comments were prepared for TVA in response to Marshall Miller’s Technical Peer
    Review of the January 28, 2010, draft report prepared by Stantec entitled Report of Geotechnical
    Exploration and Slope Stability Evaluation Ash Disposal Areas 2 and 3.


    Mr. Stephen H. Bickel, PE, of Stantec reviewed Marshall Miller’s peer review and provided
    response in a March 24, 2011, letter report. Marshall Miller’s responses are provided below.

    Stantec’s Response to Item 8.2 – First and Second Bullets
    Stantec’s response is acknowledged and accepted.

    Stantec’s Response to Item 9.2 – First and Second Bullets
    Stantec’s response is acknowledged and accepted.




     ENERGY & MINERAL RESOURCES • CIVIL & STRUCTURAL ENGINEERING • ENVIRONMENTAL SCIENCES • HYDROGEOLOGY & GEOLOGY
CARBON MANAGEMENT • EXPERT WITNESS TESTIMONY • MINING ENGINEERING • GEOPHYSICAL LOGGING SERVICES • PETROLEUM ENGINEERING
                                                                                                     Appendix C
                                                                                               Mr. Greg R. Stinson
                                                      Tennessee Valley Authority-Office of the Inspector General
                    Technical Rebuttal to March 24, 2011, TVA Response to OIG Draft Inspection, 2009-12910-03
             Peer Review of the Stability Analysis of the Ash Disposal Areas 2 and 3 at the Johnsonville Fossil Plant
                                                                                                      June 24, 2011
                                                                                                         Page 2 of 2

Stantec’s Response to Item 10.2 – First Bullet
Marshall Miller recognizes Stantec’s inclusion of the historical data considered in the
development of the material shear strength properties in the final report dated April 13, 2010.
Marshall Miller accepts the references in the report, provided the historical source documents are
archived for independent review.

Thank you for the opportunity to submit a response to comments.                          Should you have any
questions or need additional clarification, please contact Peter Lawson at (304) 255-8937


Sincerely,

MARSHALL MILLER & ASSOCIATES, INC.




John E. Feddock, P.E.                                      Peter Lawson
Senior Vice President                                      Executive Vice President
                                                           Principal-in-Charge

Attachments
cc:    Mr. Robert E. Martin, Assistant Inspector General (Audits & Inspections)
       Ms. Julie Lovingood, Auditor
